Fas
I

C@OCKLE

: E-Mail Address:
Le ga 1 Brie fs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-1313

DIMITRI SHIVKOV, INDIVIDUALLY
AND AS A TRUSTEE OF THE
PHOENIX 2010 REVOCABLE TRUST, ET AL.,
Petitioners,

v.

ARTEX RISK SOLUTIONS, INC., ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 2973 words, excluding the parts
that are exempted by Supreme Court Rule 33. 1(d), as needed.

Subscribed and sworn to before me this 7th day of June, 2021.
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

a MOTARY-State of Nebraska _ ; , 4 / Zz. Chk
1 RENEE J. GOSS 9. .

My Comm. Exp. Septamber 5, 2023
Notary Public Affiant

 

41072
